  Additional Copies

  To request copies of this report, contact Mr. Dennis L. Conway at (703) 604-9172
  (DSN 664-9172) or Mr. Frank J. Kelly at (703) 604-9602 (DSN 664-9602).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                ODIG-AUD (visit ATTN: AFTS Audit Suggestions)
                    Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704




Acronyms

BRAC                Base Realignment and Closure
COBRA               Cost of Base Realignment Actions
DGT                 Data Gathering Tool
DoD OIG             Department of Defense Office of Inspector General
DSCA                Defense Security Cooperation Agency
DWO                 Defense-Wide Organization
HQ                  Headquarters
ICP                 Internal Control Plan
JCSG                Joint Cross Service Group
JPAT 7              Joint Process Action Team Criteria Number 7
N/A                 Not Applicable
OSD                 Office of the Secretary of Defense
               Department of Defense Office of Inspector General
Report No. D-2005-071                                                       May 10, 2005
   (Project No. D2004-D000LG-0075.000)

              Defense Security Cooperation Agency’s Data Call
                Submissions and Internal Control Processes
                  for Base Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls, and Defense Security
Cooperation Agency management personnel should read this report. The report discusses
the adequacy, completeness, and integrity of the data provided by the Defense Security
Cooperation Agency to assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One–Policy,
Responsibilities, and Procedures,” April 16, 2003, which stated that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls: capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, and Joint Process Action Team Criterion
Number 7. The supplemental capacity, military value, Cost of Base Realignment
Actions, and Joint Process Action Team Criterion Number 7 data calls are collectively
known as the second data call. We issued site memorandums to the Defense Security
Cooperation Agency for the capacity analysis data call and the second data call to
summarize the results of the site visits. This report summarizes issues related to the
BRAC 2005 process used by the Defense Security Cooperation Agency as of March
2005. As of March 2005, we had not conducted any revalidations of the capacity
analysis or second data calls, and the Defense Security Cooperation Agency had not
received any Joint Cross Service Group scenario specific data calls.

The Defense Security Cooperation Agency headquarters is located in Arlington, Virginia.
It is responsible for leading, directing, and managing security cooperation programs in
support of the United States’ national security objectives to strengthen America’s
alliances and partnerships through transfers of defense capabilities.

Results. We evaluated the validity, integrity, and supporting documentation of
BRAC 2005 data and compliance with the Office of the Secretary of Defense’s and
Defense Security Cooperation Agency’s internal control plans for the capacity analysis
data call and the second data call. After corrections were made, the Defense Security
Cooperation Agency provided BRAC 2005 data that were generally supported, complete,
and accurate, as a result of our site visit. The agency used data collection processes that
generally complied with the applicable internal control plans. In addition, the agency’s
internal control plan properly incorporated and supplemented the Office of the Secretary
of Defense’s internal control plan. However, neither internal control plan addressed
separation of duties, which resulted in an immaterial internal control weakness. Any
issues identified were considered immaterial and did not affect the reliability or integrity
of the data provided in support of the BRAC 2005 analysis for the Defense Security
Cooperation Agency.

Subsequent to our review, the Joint Process Action Team Criterion Number 7 group
requested responding activities (to include DSCA) to update some of their responses
based upon new guidance. We did not review the supporting documentation for those
updated responses.

Management Comments. We provided a draft of this report on April 26, 2005. No
written response to this report is required and none were received. Therefore, we are
publishing this report in final form.




                                             ii
Table of Contents

Executive Summary                                               i

Background                                                     1

Objectives                                                     3

Finding
     Defense Security Cooperation Agency BRAC 2005 Data Call
        Submissions and Internal Control Processes             4

Appendixes
     A. Scope and Methodology                                   8
        Management Control Program Review                      11
        Prior Coverage                                         11
     B. Report Distribution                                    12
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    Secretary of Defense must submit BRAC recommendations to the independent
    Commission by May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG)–Education and Training, Headquarters and
    Support Activities, Industrial, Intelligence, Medical, Supply and Storage, and
    Technical. The JCSGs address issues that affect common business-oriented
    support functions, examine functions in the context of facilities, and develop
    realignment and closure recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that they
    reviewed.

    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data calls–
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), and Joint Process Action Team Criterion
    Number 7 (JPAT 7). The supplemental capacity, military value, COBRA, and
    JPAT 7 data calls are collectively known as the second data call. The Services,
    Defense agencies, and Defense-Wide Organizations (DWO) used either
    automated data collection tools or a manual process to collect data call responses.
    Each data call had a specific purpose as follows:

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered during the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investments) of proposed
               realignment and closure actions.




                                         1
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios. 1

           Internal Control Plans. Before the BRAC data calls were released to the
           Services and Defense agencies, OSD required the Services, Defense agencies, and
           DWOs to prepare internal control plans (ICPs) that incorporated and
           supplemented the OSD ICP. The OSD ICP was issued in the Under Secretary of
           Defense for Acquisition, Technology, and Logistics’ memorandum
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One–Policy, Responsibilities, and Procedures,” April 16, 2003. To
           comply with that requirement, the Defense Security Cooperation Agency (DSCA)
           prepared the “Defense Security Cooperation Agency Internal Control Plan for
           2005 Base Realignment and Closure Process,” February 19, 2004. For the
           capacity analysis data call, DSCA used a manual process to collect data.
           However, DSCA used the Data Gathering Tool (DGT), a modified Microsoft
           Access tool developed for those not using an automated data collection tool, for
           the second data call.

           Department of Defense Office of Inspector General Responsibility. The
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One–Policy, Responsibilities, and Procedures,” April 16, 2003,
           requires the Department of Defense Office of Inspector General (DoD OIG) to
           provide ICP development and implementation advice, review the accuracy of
           BRAC data, and evaluate the data certification processes. In addition, the
           memorandum requires DoD OIG personnel to assist the JCSGs and DoD
           Components as needed. This resulting report summarizes issues related to the
           DSCA BRAC 2005 process.

           Defense Security Cooperation Agency. The current mission of DSCA is to
           direct, administer, and provide overall policy guidance for the execution of
           security cooperation and additional DoD programs in accordance with the Foreign
           Assistance Act of 1961, as amended; the Arms Export Control Act, as amended;
           and title 10, United States Code.

           In addition to its headquarters (HQ) in the Washington D.C. area, DSCA included
           the following field sites in its OSD BRAC submission:

                    •    Defense Security Assistance Development Center, Mechanicsburg,
                         Pennsylvania;

                    •    Defense Institute of Security Assistance Management, Wright
                         Patterson Air Force Base, Ohio;

                    •    Defense Institute of International Legal Studies, Newport, Rhode
                         Island;


1
    A description of one or more potential closure or realignment actions identified for formal analysis by
    either a JCSG or a Military Department.




                                                        2
           •   Defense Financial Accounting Services Liaison Office, Denver,
               Colorado; and

           •   Humanitarian Demining Training Center, Fort Leonard Wood,
               Missouri.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DSCA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DSCA complied with
    the OSD and DSCA ICPs. This report is one in a series on data call submissions
    and internal control processes for BRAC 2005. See Appendix A for a discussion
    of the scope and methodology and prior coverage related to the audit objectives.




                                        3
                    Defense Security Cooperation Agency
                    BRAC 2005 Data Call Submissions and
                    Internal Control Processes
                    BRAC 2005 data reported by DSCA were generally supported, complete,
                    and accurate, once corrections were made as a result of our site visit. The
                    data collection processes that DSCA used generally complied with the
                    ICPs and the DSCA ICP properly incorporated and supplemented the
                    OSD ICP. Although, the DSCA ICP did not address separation of duties,
                    we do not consider it to be material, because it did not affect the reliability
                    and integrity of the data provided in support of the BRAC 2005 analysis.


DSCA BRAC 2005 Data Call Submissions
           BRAC 2005 data reported by DSCA 2 were generally supported, complete, and
           accurate, once corrections were made as a result of our site visit. Once DSCA
           received the data call questions, DSCA HQ targeted specific questions to
           applicable DSCA field sites. We evaluated the validity and integrity of the
           documentation used to support responses to the targeted questions. Specifically,
           we compared responses to supporting documentation and reviewed “Not
           Applicable” (N/A) responses to determine whether the responses were reasonable.

           Capacity Analysis Data Call. For the capacity analysis data call, DSCA
           provided responses that were generally supported, complete, and reasonable, once
           corrections were made. DSCA received 753 capacity analysis data call questions
           from the OSD BRAC Office. The DSCA trusted agent 3 determined that 699 of
           the 753 questions were N/A. We reviewed the 699 questions with N/A responses
           and determined that each of the N/A responses were reasonable except for one
           question. The DSCA trusted agent agreed with the results of our review and
           added the 1 question to the other 54 questions requiring responses. Thus, DSCA
           was responsible for responding to 55 questions in the capacity analysis data call.
           DSCA determined that each of the 55 questions required responses from its HQs
           and the Defense Security Assistance Development Center. Also, DSCA
           determined that 21 of the 55 questions required responses from its Defense
           Institute of Security Assistance Management, the Defense Institute of
           International Legal Studies, the Defense Financial Accounting Services Liaison
           Office, and the Humanitarian Demining Training Center. Each DSCA activity
           further reviewed the assigned questions to determine whether a response was
           required. The DSCA activities’ review resulted in the determination that
           19 questions required a response, as follows:

                    •   DSCA HQ responded to 3 of 55 questions;

2
    DSCA did not receive any JCSG scenario specific data calls; therefore, the DSCA BRAC 2005 data
    report did not include any JCSG scenarios data.
3
    A trusted agent is the individual who performs administrative functions associated with supporting,
    organizing, and managing the questionnaire data gathering process for an organization.



                                                       4
       •   Defense Security Assistance Development Center responded to 5 of
           55 questions;

       •   Defense Institute of Security Assistance Management responded to
           2 of 21 questions;

       •   Defense Institute of International Legal Studies responded to 2 of
           21 questions;

       •   Defense Financial Accounting Services Liaison Office responded to
           1 of 21 questions; and the

       •   Humanitarian Demining Training Center responded to 6 of
           21 questions.

During our review, it was determined that the Humanitarian Demining Training
Center had not been officially transitioned to DSCA from the U.S. Army post at
Fort Leonard Wood, Missouri. Therefore, the Training Center’s six responses
were excluded from the DSCA BRAC submission. The OSD BRAC Office
concurred with this decision and the DSCA activities were only required to
respond to the remaining 13 questions.

Initially, we found that the DSCA responses for 4 of the 13 questions were
generally supported and reasonable, while the responses for 9 questions were not.
Of these nine, one response contained a calculation error, one response was for a
question that did not apply to DSCA, and seven responses needed additional
documentation. As a result of our review, DSCA HQ obtained the additional
documentation or took action to correct the nine responses and transmitted the
responses to the OSD BRAC Office. We consider the DSCA revised responses to
be generally supported and reasonable.

Second Data Call. DSCA provided responses that were generally supported,
complete, and reasonable, once corrections were made as a result of our site visit.
DSCA responded to a total of 57 BRAC questions for the second data call. The
second data call included specific military value, and supplemental capacity
questions from the JCSGs. The DSCA second data call also included JPAT 7 and
COBRA questions that were to be answered by stand-alone or host activities,
which included leased facilities. The DSCA trusted agent provided N/A
responses for 23 of the 57 questions; we reviewed the responses for the
23 questions and determined that each of the N/A responses were reasonable.
Also, we evaluated supporting documentation for DSCA responses to the
remaining 34 questions: 3 COBRA, 5 Headquarters and Support Activities JCSG
military value, 6 Headquarters and Support Activities JCSG supplemental
capacity, and 20 JPAT 7 data call questions. We considered DSCA responses to
be generally supported and reasonable for 26 of the 34 data call questions. For
responses to the remaining eight questions, we determined that 5 responses were
not accurate, 1 response required additional support, and 2 responses were
unverifiable. However, during our follow-up site visits, we found that DSCA had
revised its responses and could provide additional supporting documentation
which corrected six of the eight responses. Although we could not verify the




                                     5
           responses for the remaining questions 4 , we considered the data, responses, and
           sources provided by DSCA for the second data call to be generally reasonable for
           use in the BRAC 2005 process.

           Subsequent to our review, the JPAT 7 group requested responding activities
           (to include DSCA) to update some of their responses based upon new guidance.
           We did not review the supporting documentation for those updated responses.


Internal Control Processes
           DSCA generally complied with OSD and DSCA ICPs and properly incorporated
           and supplemented OSD ICP management controls into the DSCA ICP for
           preparing, submitting, documenting, and safeguarding BRAC 2005 data.

           We evaluated DSCA compliance with the OSD ICP for the capacity analysis and
           second data calls. During the data calls, we evaluated the DSCA BRAC 2005
           data collection processes to determine whether they complied with OSD and
           DSCA ICPs. The evaluation included reviewing whether the DSCA ICP properly
           incorporated and supplemented OSD ICP requirements, and whether DSCA
           officials, working with BRAC data, had signed nondisclosure agreements, and
           secured and marked BRAC data. Specifically, we reviewed BRAC documents to
           ensure data was appropriately marked as “Deliberative Document-For Discussion
           Purposes Only-Do Not Release Under FOIA.” Also, we reviewed whether DSCA
           had secured BRAC documents in locked containers and that maintenance logs
           were kept, showing when information from the official BRAC file was accessed.

           Completeness of DSCA ICP. The DSCA BRAC 2005 ICP properly
           incorporated and supplemented the OSD ICP management controls for preparing,
           submitting, documenting, and safeguarding BRAC 2005 data. The DSCA ICP
           provided management controls for the accountability of information used in the
           BRAC 2005 process. The DSCA ICP also provided controls to ensure the
           accuracy, completeness, and integration of all information. The DSCA ICP
           delineates BRAC 2005 responsibilities of DSCA organizations and control
           mechanisms to safeguard DSCA BRAC information. The ICP described the
           requirement for verifying the accuracy of data and included directions on
           completing nondisclosure agreements and collecting, marking, safeguarding, and
           maintaining BRAC data. Although the OSD and DSCA ICPs did not address a
           control to ensure the separation of duties, we do not consider the absence of this
           control as a material weakness because we were able to validate that DSCA had
           provided adequate documentation to support its responses to the OSD BRAC
           Office.

           In addition, DSCA revised its ICP on April 19, 2005 to include use of a DGT in
           support of the second data call. Although DSCA revised its ICP, after the second
           data call submission to the OSD BRAC Office, the revision did not affect the
4
    We considered DSCA’s responses as unverifiable for the Headquarters Support Activities JCSG military
    value questions 1907 and 1908. DSCA had used estimates and partially filled-in FY 2003 calendars to
    support its responses to these questions and we could not verify whether the estimates or information
    recorded on the partially completed calendars was reasonable and accurate.



                                                     6
    reliability or integrity of the data provided in support of the BRAC 2005 analysis
    for the second data call.

    Compliance With ICPs. DSCA HQ generally complied with the OSD and
    DSCA ICP procedures. In addition, the site data collection processes for the
    capacity analysis and second data calls generally complied with the DSCA ICP.

    DSCA officials implemented the procedures identified in the ICP. We
    determined that DSCA officials had signed nondisclosure agreements, included
    proper markings on BRAC documents, locked BRAC data in a General Services
    Administration-approved safe, and used precautions to prevent improper release
    of, or access to, BRAC information.


Conclusion
    DSCA reported BRAC data that were generally supported, complete, and
    accurate, after corrections were made, and the data collection processes that
    DSCA used generally complied with the ICPs. We discussed the results of the
    data call submissions and ICP review with DSCA management. DSCA
    management concurred with our findings and acted to correct or more fully
    support questionable responses during our review. Although, the DSCA ICP did
    not identify a control to ensure the separation of duties, we do not consider this
    issue material, because it did not affect the reliability or integrity of the data
    provided in support of BRAC 2005 analysis.




                                         7
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of DSCA
   BRAC 2005 data. The evaluation included comparing responses to supporting
   documentation and reviewing N/A responses to determine whether the responses
   were reasonable. Questions had either an answer or an N/A response; an N/A
   response was for questions determined not to apply to a site. DSCA used a DGT
   to respond to questions for the second data call and we performed a limited
   review of the capabilities and functions of the tool. However, we did not verify
   that the responses made it into the OSD BRAC database.

   We ensured that the DSCA ICPs properly incorporated and supplemented the
   requirements of the OSD ICP. We evaluated site data collection procedures to
   determine whether they were in compliance with DSCA ICP procedures to
   include the proper handling and storage of BRAC 2005 data. In addition, we
   interviewed the personnel responsible for preparing and certifying the responses
   to the data calls.

   DSCA HQ served as the central collection point for all data call responses from
   DSCA field sites. We performed our work at DSCA HQ, Arlington, Virginia.

   Capacity Analysis Data Call. DSCA received 753 capacity analysis data call
   questions from the OSD BRAC Office. The DSCA BRAC trusted agent reviewed
   those questions and selected specific questions for each DSCA field site. The
   DSCA trusted agent determined that 55 of the 753 questions were applicable to
   DSCA HQ and field sites. Specifically, it was determined that all 55 questions
   were applicable to the DSCA HQ and the Defense Security Assistance
   Development Center; and 21 questions were applicable to the Defense Institute of
   Security Assistance Management, the Defense Institute of International Legal
   Studies, the Defense Financial Accounting Services Liaison Office, and the
   Humanitarian Demining Training Center. The DSCA trusted agent then
   forwarded the specific questions to each DSCA field site.

   We evaluated the data call questions assigned to each DSCA field site. The
   assigned data call questions were sent to DSCA HQ and DSCA field sites at
   Denver, Colorado; Fort Leonard Wood, Missouri; Mechanicsburg, Pennsylvania;
   Newport, Rhode Island; and Wright Patterson Air Force Base, Ohio. Specifically,
   we reviewed all DSCA HQ and field site responses to the assigned 55 data call
   questions. In addition, we reviewed the 699 data call questions determined to be
   not applicable to DSCA HQ and its field sites, to ensure an N/A response was
   reasonable. We conducted our review of responses for all DSCA field sites at the
   DSCA HQ in Arlington, Virginia and we issued a memorandum to summarize the
   results of the site visit. Table 1 shows the responses that we reviewed.




                                       8
         Table 1. Capacity Analysis Data Call Responses Reviewed
                                         Question Number
      DSCA Sites            Responses               Not Applicable
DSCA HQ, Arlington,     322, 446, and 462 23-25, 27, 97-100, 104-112, 301,
Virginia                                   302, 304, 305, 311, 313-321,
                                           324-330, 445, 460, 461, 463-468,
                                           471, 472, 479, 749, and 751


Defense Security           324, 327, 329,      23-25, 27, 97-100, 104-112, 301,
Assistance Development     463, and 465        302, 304, 305, 311, 313-322,
Center, Mechanicsburg,                         325, 326, 328, 330, 445, 460-
Pennsylvania                                   462, 464, 466-468, 471, 472,
                                               479, 749, and 751

Defense Institute of       301 and 472         97-100, 104-112, 302, 311, 313,
Security Assistance                            479, 749, and 751
Management, Wright
Patterson Air Force
Base, Ohio

Defense Institute of       301 and 472         97-100, 104-112, 302, 311, 313,
International Legal                            479, 749, and 751
Studies, Newport, Rhode
Island


Defense Financial       301                    97-100, 104-112, 302, 311, 313,
Accounting Services                            472, 479, 749, and 751
Liaison Office, Denver,
Colorado
Humanitarian Demining 97, 98, 104, 106,        99, 100, 105, 107-111, 302, 311,
Training Center, Fort   112, and 301           313, 472, 479,749, and 751
Leonard Wood, Missouri


DSCA provided the above responses to the OSD BRAC Office in a consolidated
data submission for the capacity analysis data call.

Second Data Call. DSCA HQ included its field site responses to the second data
call in a consolidated submittal to the OSD BRAC Office. DSCA received
specific military value and supplemental capacity data call questions from the
JCSGs. In addition, DSCA received JPAT 7 and COBRA questions that were to
be answered by stand-alone or host activities, which included leased facilities.
DSCA responded to a total of 57 questions: 8 COBRA, 1 Education and Training
JCSG supplemental capacity, 11 Headquarters and Support Activities JCSG
military value, 12 Headquarters and Support Activities JCSG supplemental

                                    9
capacity, 20 JPAT 7, and 5 Medical JCSG supplemental capacity questions.
Subsequent to our review, the JPAT 7 group requested responding activities to
update some of their responses based upon new guidance. We did not review the
supporting documentation for the changed responses.

We issued one site memorandum for the second data call. Table 2 shows the
responses that we reviewed during the second data call.

               Table 2. Second Data Call Responses Reviewed
                                             Question Number
                                    Answered              Not Applicable
JPAT 7*                       1400-1417, 1420, and    None
                              1421
COBRA                         1501, 1503, and 1505    1500, 1502, 1504,
                                                      1506, and 1507
Headquarters and Support      1905, 1907, 1908,        1909, 1910, 1913-
Activities JCSG Military      1911, and 1916          1915, and 1917
Value**
Education and Training JCSG None                      4000
Supplemental Capacity
Headquarters and Support      4096 and 4099-4103      4072-4074 and 4079-
Activities JCSG Supplemental                          4081
Capacity
Medical JCSG Supplemental     None                    4242-4246
Capacity
*
    The JPAT 7 group replaced question numbers 1418 and 1419 with question numbers 1420 and
    1421.
**
    We reviewed the responses for question numbers 1907 and 1908; however, we were unable to
    make a determination as to whether the responses were reasonable and accurate based on the
    source documents.




As of April 2005, we had not conducted any revalidations of the capacity analysis
or second data calls, and DSCA had not received any JCSG scenario specific data
calls. We performed this audit from March 2004 through April 2005 in
accordance with generally accepted government auditing standards.

Use of Computer-Processed Data. We did not test the accuracy of the
computer-processed data used to support an answer to a data call question
because of time constraints. Therefore, potential inaccuracies in the data could
impact the results, however, the BRAC data were certified as accurate and
complete to the best of the certifier’s knowledge and belief. We performed a
limited review of the DGT and determined that its use did not affect the reliability
or integrity of the data provided in support of the BRAC 2005 analysis for the
second data call.




                                           10
    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Federal Real Property and DoD Support Infrastructure
    Management high-risk areas.


Management Control Program Review
    We evaluated the DSCA management controls for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed procedures
    DSCA used to develop, submit, and document its data call responses. In addition,
    we reviewed the controls implemented to safeguard against the disclosure of
    DSCA BRAC data before responses were forwarded to the OSD BRAC Office
    and determined that management controls were adequate as they applied to the
    audit objective. (See finding for specific details.) We did not review the DSCA
    management control program because its provisions were not deemed applicable
    to the one-time data collection process.

Prior Coverage
    During the last 5 years, the following DoD Inspector General memorandums have
    been issued related to DSCA BRAC 2005.

    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission for the
    Defense Security Cooperation Agency for Base Realignment and Closure 2005,”
    November 18, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    for the Defense Security Cooperation Agency for Base Realignment and Closure
    2005,” May 6, 2004




                                        11
Appendix B. Report Distribution

Office of the Secretary of Defense
           Director, Base Realignment and Closure (Installations and Environment)

Other Defense Organization
           Director, Defense Security Cooperation Agency


Non-Defense Federal Organizations
           Government Accountability Office ∗




∗
    Only Government Accountability Officer personnel involved in the BRAC process are to receive the
    report.




                                                     12
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert F. Prinzbach II
Deborah L. Culp
Dennis L. Conway
Frank J. Kelly
Christine M. McIsaac
Meredith H. Johnson
